   August 1, 2006




Acquisition
Procurement Procedures Used for
Next Generation Small Loader
Contracts
(D-2006-100)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AFB                   Air Force Base
AFOTEC                Air Force Operational Test and Evaluation Center
AMC                   Air Mobility Command
FAR                   Federal Acquisition Regulation
MTBF                  Mean Time Between Failure
NGSL                  Next Generation Small Loader
ORD                   Operational Requirements Document
PEO                   Program Executive Officer
QOT&E                 Qualification Operational Test and Evaluation
R&M                   Reliability and Maintainability
WRALC                 Warner Robins Air Logistics Center
                Department of Defense Office of Inspector General
Report No. D-2006-100                                                       August 1, 2006
 (Project No. D2005-D000FJ-0207.000)

         Procurement Procedures Used for Next Generation Small
                          Loader Contracts

                                 Executive Summary
Who Should Read This Report and Why? DoD program managers and contracting
officials responsible for obtaining nondevelopmental systems and equipment should read
this report. It discusses the Air Force acquisition of a nondevelopmental (commercially
available) cargo loader and its suitability for accomplishing mission requirements.

Background. The Next Generation Small Loader (NGSL) is an air transportable, 25,000
pound capacity, self-propelled mobile air cargo transporter/loader designed to support
military transport and civil reserve fleet aircraft. In 2000 the Air Force decided to replace
two existing vehicles (a cargo loader and a wide-body elevator) with one significantly
more reliable vehicle, the NGSL, so that only one vehicle needed to be deployed to meet
warfighter requirements. The Air Force acquired the NGSL to augment its fleet of 60K
Tunner cargo loaders. The 60K Tunner is a more robust cargo loader specifically
developed for the Air Force and acquired under Federal Acquisition Regulation (FAR)
Part 15, “Contracting by Negotiation.”

In 2000, the then Principal Deputy Assistant Secretary of the Air Force for Acquisition
and Management, Darleen Druyun, decided to use an aggressive strategy to procure
NGSL loaders as commercial items. During the contract source selection process, the Air
Force tested two competing loaders made by FMC Corporation (FMC) and Teledyne
Brown Engineering (Teledyne). It selected FMC. Teledyne protested the award but
Druyun denied the protest. Between FYs 2000 and 2005 the Air Force procured 345
NGSL vehicles from FMC under a commercial item contract at a cost of $151.5 million.

Results. Air Force test results indicated that neither of the two competing cargo loaders
could meet Air Force operational requirements for reliability and a contract should not
have been awarded. Operational data from FYs 2004 and 2005 indicate that the NGSL
loader that was selected has not met the critical requirement of “40 hours mean time
between failure.” In addition, the NGSL loader does not have adequate ground clearance
to fully perform its mission. As a result of the reliability problems, the Air Force cannot
meet a key performance parameter that requires it to deploy one vehicle instead of two
vehicles to meet contingency requirements. In addition to the reliability problems, the
direct labor hours required to maintain the loaders is twice the planned amount.
Although we brought this to the attention of the Air Force in October 2005, on
February 10, 2006, the Air Force awarded a $45.6 million indefinite delivery/indefinite
quantity contract to FMC for up to 65 more loaders and concurrently issued a delivery
order on that contract for 24 loaders at a total cost of $14.4 million. Despite the
performance problems, the unit price of the additional loaders increased by 36 percent
from $439,109 per unit in the original contract to $599,112 per unit in the follow-on
contract. The Air Force Office of the Assistant Secretary (Acquisition) needs to delay
issuing $31.2 million in further delivery orders until reliability is improved and the
vehicle receives an acceptable rating for mission capability; require FMC to remedy the
lack of sufficient ground clearance; consider other options, including use of the 60K
Tunner Cargo loader as an alternative to procurement of additional NGSLs; and improve
controls to ensure that future commercial acquisitions adequately meet Air Force
operational requirements. (See Appendix B for a summary of the potential monetary
benefits.)

Management Comments and Audit Response. The Military Deputy, Office of the
Assistant Secretary of the Air Force (Acquisition) concurred with one recommendation
and nonconcurred with three recommendations. He agreed to ensure that future FAR
Part 12 acquisitions adequately meet Air Force operational requirements. He disagreed
that the NGSL loader failed to meet or exceed Air Mobility Command requirements and
key performance parameters. He stated Air Force testing showed it did meet
requirements. He did not agree to correct the ground clearance problems with the NGSL
because he believed that the $6 million cost to modify the fleet exceeded the benefit.
Additionally, he did not agree to consider other options, including purchasing the
60K Tunner cargo loaders as an alternative to procuring additional NGSLs because the
60K Tunner has a different mission. He stated that the Air Mobility Command
established the basing and quantity requirements for the NGSL based on war plans and
would address the ground clearance issue by providing more operator training.

We do not agree with the Military Deputy’s statement that NGSL performance data meet
or exceed Air Mobility Command operational requirements and key performance
parameters. This statement is contrary to performance data for FYs 2004 and 2005
provided by the Commander, Warner Robins Air Logistics Center, that show the
vehicle’s mean time between failure to be 21.7 and 23.9 hours respectively. Both figures
are below the 40 hour Air Mobility Command requirement for mean time between
failures. In addition, Key Performance Parameter number 1 for the NGSL specifies that
the NGSL must be capable of loading all stated aircraft so a second loader will not be
required. This parameter also states that this capability will maximize loader availability
in contingencies. We do not agree that $6 million is a prohibitively high cost to improve
ground clearance given the Air Force’s $151.5 million investment to field the NGSL and
given that the NGSL’s mission requires it to operate in remote locations on less than
ideal surfaces. The NGSL needs more ground clearance to successfully interface with
Air Force transport aircraft, such as the C-130 Hercules and C-17 Globemaster III that
can land on unpaved airfields. We believe that the Air Force needs to re-evaluate
whether $6 million is a reasonable cost, considering the NGSL’s mission as a deployable
asset to support aircraft that can land on remote locations. The Military Deputy also did
not provide a sufficient justification for not considering the use of the 60K Tunner cargo
loader as an alternative for acquiring more NGSLs. His statement that the 60K Tunner
has a different mission does not adequately take into account that, except for
transportability on a C-130 Hercules, both vehicles have similar missions and
capabilities, are rapidly deployable, and can interface with all Military and commercial
cargo aircraft. We request that the Air Force Office of the Assistant Secretary
(Acquisition) reconsider its position and provide comments to the final report by
September 5, 2006.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objective                                                                2

Finding
     Acquisition of the Next Generation Small Loader                     3

Appendixes
     A. Scope and Methodology                                           18
     B. Summary of Potential Monetary Benefits                          20
     C. Memorandums on the FY 2006/2007 Procurement                     21
     D. Report Distribution                                             26

Management Comments
     Office of the Assistant Secretary of the Air Force (Acquisition)   29
Background
    The Next Generation Small Loader (NGSL) is an air transportable, 25,000 pound
                                        capacity, self-propelled mobile air cargo
                                        transporter/loader that can be used to load
                                        cargo in military transport and civil
                                        reserve fleet aircraft.

                                           The Air Force procured the NGSL to
                                           replace the aging fleet of Wide-Body
                                           Elevator Lifts and 25K loaders and to
                                           augment its fleet of 60K Tunner cargo
                                           loaders. The 60K Tunner is a more
                                           robust cargo loader specifically
                                           developed for the Air Force and acquired
                                           under Federal Acquisition Regulation
                                           (FAR) Part 15, “Contracting by
    Negotiation.” The Air Force acquired the NGSL under FAR Part 12 “Acquisition
    of Commercial Items.” This section of the FAR enables the purchase of
    nondevelopmental commercial items that meet agency requirements.

    Air Force FAR Supplement 5315.3, “Source Selection,” establishes Air Force
    source selection policy and implements FAR Subpart 15.3, “Source Selection.”
    Supplement 5315.305, “Proposal Evaluation,” states that a proposal with an
    unacceptable rating for mission capability is not awardable.

    The Air Force acquisition strategy for the NGSL included a two phase source
    selection process. The initial phase included a competition between cargo loaders
    manufactured by FMC Corporation (FMC) and Teledyne Brown Engineering
    (Teledyne). The Air Force awarded Phase I contracts in FY 1999 to FMC and
    Teledyne. NGSL program goals are described in the acquisition management
    plan and in the Operational Requirements Document (ORD). The Program
    Executive Officer (PEO), Airlift and Trainers approved the acquisition
    management plan on February 11, 2000. The Air Mobility Command approved
    two separate ORDs during the acquisition process (one during each phase).

    The first and second phases included vehicle assessments conducted by the Air
    Force Operational Test and Evaluation Center (AFOTEC). AFOTEC functions as
    the Air Force operational test agency and is responsible for independently testing
    new Air Force systems under operationally realistic conditions.

    FMC won the Phase I competition and on June 22, 2000, was awarded an
    indefinite-delivery/indefinite-quantity contract to provide an estimated 264
    NGSLs at an anticipated total cost of $458 million.

    On July 3, 2000, Teledyne filed a protest with the former Principal Deputy
    Assistant Secretary of the Air Force for Acquisition and Management, Darleen
    Druyun, claiming that the Air Force did not fairly consider the Teledyne loader.
    On September 22, 2000, Druyun denied the protest, concluding that the Source
    Selection Authority made a reasonable and rational award decision and that the



                                         1
    Air Force considered the FMC loader a better value. The Teledyne bid was
    $21.3 million less than the FMC bid.

    Between FYs 2000 and 2005 the Air Force procured a total of 345 vehicles from
    FMC at a cost of $151.5 million (average unit cost of $439,109). On
    February 10, 2006, the Air Force awarded a $45.6 million indefinite
    delivery/indefinite quantity contract to FMC for up to 65 more vehicles. On the
    same day the Air Force issued a delivery order on the contract for 24 vehicles at a
    total cost of $14.4 million (average unit cost of $599,112).


Objective
    Our audit objective was to determine whether Air Force contracting officials
    properly awarded contracts for a Next Generation Small Loader that met Air
    Force operational requirements. See Appendix A for a discussion of the scope
    and methodology.


Managers’ Internal Control Program
    Review of the Managers’ Internal Control Program was not an objective of the
    audit, and we did not review the program.




                                         2
           Acquisition of the Next Generation Small
           Loader
           During the source selection process for initial contract award, the Air
           Force tested two competing loaders, the FMC loader and a loader made by
           Teledyne Brown Engineering. The Air Force awarded the contract to
           FMC even though test results indicated that both loaders had serious
           reliability problems. The procurement files indicated that neither cargo
           loader should have been selected because the loaders could not meet
           operational requirements for reliability. Operational data from FYs 2004
           and 2005 indicate that the NGSL has not met the critical requirement of
           functioning for an average of 40 hours without repair. In addition, the
           NGSL does not have adequate ground clearance to fully perform its
           mission. The Air Force purchased unreliable loaders because of the
           aggressive Air Force procurement strategy advocated by the then Principal
           Deputy Assistant Secretary of the Air Force of Acquisition and
           Management, Darlene Druyun, to acquire the NGSL as a commercial item
           under FAR Part 12, “Acquisition of Commercial Items.” As a result of the
           reliability problems, the Air Force cannot meet a key performance
           parameter and must deploy two vehicles to meet surge scenario
           requirements instead of deploying one vehicle as originally planned. In
           addition, the direct labor hours required to maintain the loader are twice
           the planned amount. The Air Force Office of the Assistant Secretary
           (Acquisition) needs to delay issuing $31.2 million in further delivery
           orders to FMC until reliability is improved and the vehicle receives an
           acceptable rating for mission capability; require FMC to remedy the lack
           of sufficient ground clearance; consider other options, including use of the
           60K Tunner Cargo loader as an alternative to procurement of additional
           NGSLs; and improve controls to ensure that future FAR Part 12
           acquisitions adequately meet Air Force operational requirements.


NGSL Acquisition Strategy
    Mission Need. The Air Force had established the NGSL program in FY 1994 to
    address the Air Mobility Command (AMC) need for a new 25K cargo loader.
    The program’s goal was to field a significantly more reliable loader to replace the
    existing 25K loaders that require the use of a special elevator to load wide-body
    aircraft. This strategy was expected to eliminate the need to send two pieces of
    materiel handling equipment to a location during a deployment.

    Air Force market research in FY 1998 identified three commercial cargo loaders
    as potential replacements. At that point, the Warner Robins Air Logistics Center
    (WRALC) program director stated he was concerned about performance of the
    available commercial loaders and that the commercial loaders would not be
    reliable enough to meet AMC requirements. However, the Air Force decided to
    proceed with the procurement of one of the three designs.




                                         3
    Program Management Transfer. Druyun made some decisions about the
    NGSL program in FY 1998 that affected management of the acquisition. In 1997,
    WRALC was responsible for managing the Air Force cargo loader fleet.
    However, Druyun transferred management of the NGSL program in May 1998
    from WRALC to the Aeronautical Systems Command, Wright-Patterson AFB.
    WRALC officials told us that Druyun transferred the NGSL program because she
    wanted to aggressively pursue the new acquisition despite cost overruns and
    delays that had already plagued the 60K Tunner cargo loader program and that
    they believed could occur on the NGSL. In July 1998, Druyun designated the
    Program Executive Officer (PEO), Airlift and Trainers, as the NGSL source
    selection authority. The program officials were expected to ensure that the NGSL
    was reliable enough to meet the user’s operational requirements before awarding
    contracts to FMC in FY 2000 and FY 2006.

    Development Needed. The Air Force procured the NGSL in accordance with a
    Government policy that encouraged DoD to acquire new systems as commercial
    items. The strategy was outlined in FAR Part 12, “Acquisition of Commercial
    Items.” In a memorandum dated September 30, 1997, the WRALC program
    director told Druyun’s office that proposed NGSL reliability parameters were
    potential “show stoppers” to the use of a FAR Part 12 contract because they were
    based on the 60K Tunner cargo loader—a developmental system procured under
    FAR Part 15, “Contracting by Negotiation.” He said that to achieve a “400 hour
    mean time between critical failure” the NGSL program would also need to be a
    developmental system. Druyun did not accept the WRALC recommendation to
    develop the NGSL under FAR Part 15 and instead proceeded with a FAR Part 12
    contract.

    NGSL Acquisition Plan. On February 11, 2000, the PEO approved an
    aggressive acquisition plan advocated by Druyun that called for procuring the
    NGSL as quickly as possible as a nondevelopmental commercial item in
    accordance with FAR Part 12. Additionally, the acquisition plan stated that,
    based on preliminary testing, a full developmental program was not necessary for
    the NGSL. However, this assertion is not supported by the Phase I competition
    test results (see Table 1) and is contrary to the previous recommendation by the
    WRALC program director. In addition, the acquisition plan included a key
    performance parameter that required the NGSL to be capable of loading all
    aircraft so that a second loader would not be required for contingencies.


NGSL Selection Process
    The NGSL selection process consisted of two phases. Phase I included a
    competition between two loaders (produced in the United States under license by
    Teledyne and FMC) identified during the market research. Phase II included
    additional testing of the FMC loader, winner of the Phase I competition.

    The Phase I competition included concurrent tests of both loaders. AFOTEC
    conducted the tests. The tests were an assessment of the loaders’ ability to meet
    AMC’s requirements as defined in the NGSL ORD dated February 15, 1998.



                                         4
Operational Requirements. A 60-day surge capability was built into the ORD’s
requirements to ensure readiness. Specifically, the ORD stated that the loader,
with one operator and one mechanic, is expected to function in deployed locations
without base-level support for up to 60 days, and is expected to be mission ready
24 hours a day. The ORD specified that readiness would be measured using a
formula called “mission success completion probability.” “Mean time between
critical failure” is a component of this formula. A critical failure is any failure
that prevents the system from performing its specified mission.

Phase I Test. The preliminary Phase I competition test results for reliability were
very poor. AFOTEC determined that because of frequent failures the FMC loader
had a 29% probability to successfully complete mission requirements. As a
result, AFOTEC concluded that a deployed location would require more than one
loader to ensure all assigned missions were accomplished. Results for the
Teledyne loader were unacceptable as well.

                            Table 1. Phase I Test Results
                 AFOTEC Operational Assessment, March 2000
          Is the reliability sufficient to support mission requirements?

      Measure             FMC Cargo Loader              Teledyne Cargo Loader

MTBCF1/Rating        49.0 hours   Not Acceptable     44.1 hours    Not Acceptable

MCSP2/Rating            29%       Not Acceptable         26%       Not Acceptable

1
    Mean Time Between Critical Failure
2
    Mission Completion Success Probability


AFOTEC stated in its Phase I reports that neither vehicle was suitable for Military
operations and either would encumber Air Force resources if deployed. In
addition to the reliability problems as shown in Table 1, AFOTEC concluded that
the Teledyne loader, “as currently configured, may impose undesirable burdens
on the Air Force to deploy, employ, and sustain mobility operations worldwide.”

AFOTEC reported that the FMC loader exceeded the weight requirements
specified in the ORD and was not reliable enough to complete all mission
requirements during a 60-day deployment. The FMC loader’s reliability numbers
were so low that AFOTEC concluded that one vehicle would be incapable of even
completing a 1-week surge scenario.

However, AFOTEC stated that the FMC loader would not cause any undesirable
burdens if the system program office corrected the deficiencies prior to fielding.
Overall, AFOTEC rated the FMC loader higher than the Teledyne loader in 16
out of 20 operational categories.

Source Selection Team. A source selection evaluation team, composed of
various Air Force officials and chaired by the NGSL program director, reviewed
the outcome of the Phase I test results and the proposals submitted by FMC and


                                     5
    Teledyne. The team rated the FMC loader superior in four out of seven risk
    categories. The PEO then reviewed the team ratings and selected the FMC
    loader. According to the source selection document, the PEO judged the FMC
    loader to be the best value to the Government even though the FMC bid to
    produce the loader was $21.3 million higher than the offer from Teledyne.

    The PEO considered FMC’s proposed estimate of 60 hours between failures to be
    a realistic and acceptable estimate despite AFOTEC’s finding that the vehicle’s
    reliability was insufficient to meet mission requirements.

    Notwithstanding the unacceptable test results for both vehicles, the Air Force
    awarded FMC a $458 million (maximum) indefinite-delivery/indefinite quantity
    contract on June 22, 2000.

    Award Protest. On July 3, 2000, Teledyne filed a protest with Druyun’s office
    claiming that the Air Force did not fairly consider the Teledyne loader. On
    September 22, 2000, Druyun denied the protest, concluding that the Source
    Selection Authority (the PEO) made a reasonable and rational award decision and
    that the Air Force considered the FMC loader to be a better value. Druyun’s
    review was inadequate because she did not address red-flagged reliability
    problems that should have precluded the procurement of either vehicle. Druyun
    should have intervened and directed the development of a more suitable loader
    rather than awarding the contract to FMC under FAR Part 12.


NGSL Qualification Tests
    Phase II of the NGSL qualification test included two more tests of the FMC
    loader reliability, maintainability, and availability. AFOTEC conducted the first
    test, called the Qualification Operational Test and Evaluation (QOT&E), in
    FY 2001. The purpose of the QOT&E is to evaluate the operational effectiveness
    and suitability of the NGSL in its intended environment and to conduct an
    operational impact assessment. Procurement officials were to use the outcome of
    the tests to support a Milestone III (full rate) production decision.

    The QOT&E lasted nearly 3 weeks and was conducted at Dover Air Force Base.
    Overall, AFOTEC concluded that the FMC loader, as configured, was unsuitable
    for its intended mission and that the system’s reliability did not meet AMC’s
    operational requirements. In addition, AFOTEC stated that the low reliability of
    the FMC loader directly affected the maintenance man-hours required to keep the
    loader operational. AFOTEC again recommended that the program office focus
    on improving the reliability of the system. Specific critical operational
    issues red-flagged by AFOTEC are shown in Table 2.




                                        6
                               Table 2.
         Qualification Operational Test and Evaluation Results
                       FMC Loader - July, 2001

                  Measure                    Results            Rating

Reliability          MTBF1                    4.0 hours      Did Not Meet
                     MTBCF2                  11.1 hours      Did Not Meet
Maintainability      Maintenance Ratio3       0.51           Did Not Meet
Availability         Ao4                     69.3%           Did Not Meet
                     VIC5                    69.3%           Did Not Meet
1
  Mean Time Between Failure
2
  Mean Time Between Critical Failure
3
  Mean Maintenance Man Hour per Operating Hour
4
  Operational Availability
5
  Vehicle In Commission


Readiness Scenario. AFOTEC did not fully perform the 60-day surge
requirement during the QOT&E. AFOTEC states in its report that the test team
was limited to a 5-day simulated surge scenario. The former chief engineer told
us that the test was limited because of inadequate funding. During the 5-day
simulated surge scenario the FMC loader averaged 8.3 hours per day availability,
well below the required 12-hour duty cycle.

AFOTEC determined that the low reliability demonstrated during the test would
deplete available resources during a deployment. Specifically, AFOTEC
concluded that more than one loader would be required to complete all necessary
missions at a deployed location thus requiring additional maintenance resources
and an additional aircraft sortie if transported by a C-130. Although larger
aircraft can transport two loaders, AFOTEC concluded that doing so would
require moving cargo to another aircraft and would increase the required sorties to
move all cargo to deployed locations. The outcome of this scenario contradicts
the goal of the NGSL program, which was to replace existing loaders
and wide-body elevators with one vehicle.

Reliability and Maintainability Test. The second Phase II test was the
Reliability and Maintainability (R&M) test of the FMC loader. The stated
objective of the R&M test was to more completely assess the reliability and
maintainability of the FMC loader and to gather data to estimate future reliability
growth. The R&M test began on July 6, 2001, and ended September 1, 2001.

The R&M test did not adequately assess the readiness issues previously identified
by AFOTEC. Specifically, there is no mention of a simulated surge scenario in
the report. The former chief engineer told us that the R&M test measured the
vehicle’s failure rate but did not simulate the surge scenario. Testers did not
evaluate the 60-day readiness requirement during the R&M test, and AFOTEC
did not officially review the test results. In addition, red-flagged items identified
by AFOTEC in the previous test were not resolved.



                                      7
           During the R&M test, AMC revised the ORD and deleted the 1,500 hour mean
           time between critical failure requirement and replaced it with mean time between
           failure (MTBF). A failure occurs when an item, or part of an item, does not
           perform as specified. AMC approved a 40-hour MTBF at the start of production
           and a 60-hour MTBF at the end of production. The former chief engineer told us
           that FMC established the MTBF.

           The R&M results were better than the AFOTEC test. The MTBF was 43.4 hours.
           However, engineering personnel told us they did not count all the loader failures
           when calculating the MTBF, and that they used a different methodology for
           classifying failures than did AFOTEC. Including all the failures would have
           reduced the MTBF below the 40-hour threshold. The then chief engineer told us
           that meeting the 40-hour threshold was crucial for proceeding to full rate
           production.

           PEO Briefing. According to the former NGSL program director, the R&M test
           was the tipping point for proceeding to full rate production. The program office
           presented the test results to the PEO for formal approval. The official briefing
           charts that summarized the R&M test results did not disclose the unresolved
           red-flagged items identified by AFOTEC. The PEO authorized full rate
           production in a memorandum, dated October 26, 2001. In the memorandum, the
           PEO directed the program director to improve reliability and achieve 60 hours
           MTBF by the end of FY 2002. Operational data showed that reliability has not
           improved and did not meet ORD requirements in either FY 2004 or FY 2005.


Reliability of Fielded Loaders
           Since FY 2000, the Air Force has fielded 345 of the NGSL cargo loaders, yet
           reliability continues to be problematic. FY 2005 operational data show:

                   •   MTBF of 23.9 hours in FY 2005 (below ORD threshold of 40 hours).

                   •   Maintenance ratio1 is 0.64 (ORD threshold requires not more than
                       0.3).

                   •   In July of 2005 more than one third of the entire fleet (120 vehicles out
                       of 328 loaders fielded at that time) reported 0 operating hours.

                   •   Operational availability is below 15 percent.

           We concluded that program officials have not improved the reliability of the
           NGSL as directed by the PEO in FY 2002. Program officials told us that the
           reliability figures are misleading because the customer, AMC, is satisfied with the
           vehicle. However, NGSL operators do not completely agree with this assessment.
           We visited three Air Force activities that use the NGSL and found that vehicle


1
    Maintenance ratio equals mean maintenance man hour per operating hour (lower is better). The program
    office provided FY 2005 data through August 2005 (11 months).



                                                     8
operators are not satisfied with the NGSL because it has insufficient ground
clearance, is fragile, and is in constant need of repair.

Ground Clearance. The lack of adequate ground clearance has resulted in
extensive damage to at least six vehicles. Maintainers at the three Air Force
activities that we visited told us of six different instances of damage caused by a
                                            lack of ground clearance, including two at
                                            Al Udied, Qatar. At Charleston AFB we
                                            observed an NGSL extensively damaged
                                            (see picture) by contact with a man-hole
                                            cover on the flight line. Operators told us
                                            the vehicle cannot operate normally on all
                                            areas of the flight line and that they must
                                            avoid areas with slight indentations and
                                            imperfections. This is a serious limitation
                                            for a deployable vehicle that is also
                                            expected to operate in austere locations
                                            on less than ideal surfaces.

Accordingly, in FY 2004, the former contracting officer requested that FMC
submit a proposal to remedy the lack of vehicle ground clearance. Specifically,
the memorandum states, “The increased clearance should prevent components,
such as oil pans, from sustaining damage during normal operations.” The former
chief engineer told us that FMC’s solution was too costly to implement. Program
officials also told us that they did not know the frequency or extent of the damage
to vehicles caused by the lack of ground clearance.

The ORD specifies that the NGSL be able to traverse semi-prepared surfaces,
such as gravel, perforated steel planking, and rapid runway repair slabs, which are
typically found at austere locations overseas. However, the Air Force did not test
the NGSL capabilities in such an environment before the contract award.
AFOTEC conducted the pre-award tests primarily on the improved surfaces at
Travis and Dover Air Force Bases. Testers likely did not identify this design flaw
during pre-award testing because they did not fully perform the 60-day readiness
scenario and did not simulate conditions found at austere locations.

We believe the aggressive acquisition strategy adopted by Druyun and
implemented by NGSL program officials resulted in rapidly fielding the NGSL
without completely testing the vehicle in its intended environment.

Operator Preference. The operators also told us that other parts of the vehicle,
such as the guide rails and the omni rollers, are easily damaged during routine
operations. Additionally, they said that because of the limited ground clearance
and recurrent failures they would rather use any vehicle other than the NGSL to
move cargo. Operators told us that they would rather have more 60K Tunner
cargo loaders than additional NGSLs that they won’t use. We verified that
NGSLs are infrequently used at large aerial ports. For example, in FY 2005,
NGSLs assigned to Dover AFB and Charleston AFB operated an average of only
4 hours per week. Operators that we interviewed told us that they preferred the
60K Tunner cargo loader and, therefore, are less inclined to use the NGSL.




                                      9
           Unlike the NGSL, the 60K Tunner cargo loader was specifically developed to
           meet AMC requirements. The operators told us that they prefer the 60K Tunner
           because it is more efficient (can handle up to 60,000 pounds of cargo) and is
           considerably more reliable than the NGSL. FY 2005 data provided by the
           program office show that the 60K Tunner is more than twice as reliable as the
           NGSL.

           Parts Support. Maintainers told us that the NGSL is easy to work on but that
           parts support is inadequate, sometimes taking up to 5 weeks for delivery. This is
           apparent in FY 2005 operational data2 provided by the program office.
           Specifically, the data shows an average down time (waiting for parts and
           maintenance) of 7.8 hours for each hour of vehicle operation and a 23.9 hour
           MTBF. Air Force officials told us that they are planning to establish an interim
           logistics support contract with FMC to provide better support.

           The FY 2005 fleet-wide maintenance ratio of 0.64 is double the ORD requirement
           of 0.3. The maintenance ratio quantifies the relative labor effort required to
           maintain the NGSL and is a key requirement that is included in the contract.
           AMC desired a reliable loader to minimize labor (and, therefore, labor costs) and
           set the minimum acceptable ratio of 0.3. The 0.3 ratio was based on experiential
           data for the older 25K loaders being replaced by the NGSL. The observed
           maintenance ratio of 0.64 equates to 6.4 maintenance man hours for every 10
           hours of vehicle operation and is double the maximum allowable amount set by
           AMC in the ORD.


FY 2006/2007 Procurement
           The Air Force initially procured the NGSL even though Air Force procedures
           precluded selection of the NGSL. According to Air Force FAR
           Supplement 5315.3, “Source Selection,” June 4, 1999, proposals with an
           unacceptable rating for mission capability are not awardable. The Air Force
           recently revised its FAR Supplement with Air Force Mandatory
           Procedure 5315.3, “Source Selection,” August 10, 2005. According to Mandatory
           Procedure 5315.3, proposals with an unacceptable rating for mission capability
           are not awardable.

           Air Force officials continue to aggressively acquire more NGSLs despite the
           long-standing reliability and ground clearance problems. During the audit,
           program officials announced that they were planning to award a sole source
           contract to FMC for another 65 vehicles. On October 6, 2005, we issued a
           memorandum to the Commander, WRALC, recommending that the Air Force
           improve reliability rather than buy more of the NGSL loaders (see Appendix C).
           We provided data and supplemental information showing that the NGSL loader is
           unreliable and has not met AMC operational requirements.



2
    The FY 2005 fleet-wide data provided by the program office did not include data for the month of
    September.



                                                     10
In November 2005, we visited WRALC to discuss the proposed contract with
program officials and responsible senior executives. We asked the program
director to provide reliability data to demonstrate that the NGSL has met the
operational requirements for MTBF and maintenance ratio. He told us that the
maintenance ratio of 0.64 is correct but the MTBF data were not available. A
senior executive disagreed and tasked the program director to obtain the data. We
received that data as part of a memorandum from the PEO dated January 17, 2006
(see Appendix C).

PEO Memorandum. The January 17, 2006, memorandum from the PEO was in
response to our October 6, 2005, memorandum. The response included a cover
memorandum, signed by the PEO, and two attachments, one signed by the
Commander, WRALC on January 12, 2006, and a November 1, 2005,
memorandum signed by the Vice Commander, AMC.

In the cover memorandum, the PEO told us that the Air Force is proceeding with
the procurement because AMC has high confidence in the NGSL and because
performance data show “the loader meets or exceeds the requirements as defined”
in the ORD. However, the information given to the PEO is incorrect. Three of
the four performance measures referenced in the memorandum do not meet the
requirements in the ORD as shown in Table 3.

       Table 3. NGSL Reliability versus Operational Requirement

          Reliability Measure          ORD Threshold            Rating

 MTBF FY 2004           21.7 hours          40 hours        Did Not Meet
 MTBF FY 2005           23.9 hours          40 hours        Did Not Meet
 VIC1 FY 2004           89.8 %               88 %               Met
 VIC1 FY 2005           86.1 %               88 %           Did Not Meet
 1
     Vehicle In Commission


Additionally, as discussed earlier, the FY 2005 fleet-wide data provided by the
program office show that the maintenance ratio exceeds the allowable maximum
of 0.3, as specified in the ORD.

The PEO also provided data for the legacy 25K loaders—19.8 hours MTBF for
FY 2004 and 18.5 hours MTBF for FY 2005. This shows that the NGSL is not
significantly more reliable than the older legacy loaders it is replacing.

The program director told us that the substantial unit price increase on the
FY 2006 contract mostly reflects supplier and vendor price increases. However,
the NGSL is a “commercial” type item and shares 80 percent of its electrical and
hydraulic parts with other FMC production lines. We asked the program director
whether he had analyzed the vendor costs to determine the validity of the
proposed price increase. He could not provide an adequate justification for the
price increase.

On February 10, 2006, the Air Force awarded FMC a sole-source contract for up
to 65 vehicles at a total cost of $45.6 million. The contracting officer issued the


                                     11
    first delivery order on the same day for 24 vehicles at a cost of $14.4 million. The
    PEO approved the justification and approval for a sole source award on
    December 5, 2005. We reviewed the justification and approval document and
    believe that the Air Force did not consider whether the award complied with Air
    Force Mandatory Procedure 5315.3, “Source Selection,” August 10, 2005.

    Compliance. According to Air Force Mandatory Procedure 5315.3, “Source
    Selection,” August 10, 2005, proposals with an unacceptable rating for mission
    capability are not awardable. The NGSL has not received an acceptable rating for
    mission capability. Accordingly, the Air Force Office of the Assistant Secretary
    (Acquisition) needs to delay procurement until reliability is improved and the
    vehicle receives an acceptable rating for mission capability. Doing so will avoid
    $31.2 million (contract amount of $45.6 million less delivery order of
    $14.4 million) in additional procurement costs for unreliable loaders.


Summary
    Air Force officials procured the NGSL in accordance with an aggressive Air
    Force procurement strategy to obtain commercial-type vehicles as quickly as
    possible. However, NGSL program officials did not ensure that the vehicle met
    AMC operational requirements before awarding the contract. In
    addition, pre-award testing did not completely assess the FMC loader’s ability to
    meet the 60-day readiness requirement and, as a result, did not identify the
    loader’s inadequate ground clearance.

    FY 2004 and FY 2005 operational data show that NGSL officials have not
    remedied vehicle reliability issues identified during the pre-award testing.
    Vehicle reliability is so low that the Air Force cannot meet a key performance
    parameter and must deploy two vehicles to meet surge scenario requirements
    instead of one as originally planned. In addition, labor hours required to maintain
    the loader are twice the planned amount.

    The Air Force needs to delay plans to procure additional NGSL vehicles, taking
    into consideration the vehicle’s unreliability and inadequate ground clearance, the
    superior performance of the 60K Tunner cargo loader and its possible use, and
    Air Force mandatory contracting procedures. In addition the Air Force Office of
    the Assistant Secretary (Acquisition) needs to improve controls to ensure
    compliance with Air Force policy and to ensure that systems purchased under
    FAR Part 12 meet Air Force operational requirements.


Management Comments on the Finding and Audit Response
    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) provided 33 comments to the Finding
    (see the Management Comments section for the entire text).




                                        12
The Military Deputy provided 24 comments (numbered 1, 2, 4, 5, 6, 8, 11, 12, 13,
14, 15, 16, 17, 18, 19, 20, 21, 22, 26, 29, 30, 31, 32, and 33 in the schedule
attached to his memorandum) that disagreed with information in the Finding
related to NGSL key performance parameters and operational requirements. He
stated that reliability, deployment, and maintenance ratios were not KPPs and that
the NGSL had three KPPs: 1) load types, 2) aircraft interface, and 3) air
transportability. His comments also stated that the NGSL met MTBF
requirements throughout the procurement phases for the NGSL. He stated that
the number of NGSLs fielded as of July 2005 was 328 instead of 345, and that the
entire 345 NGSLs were not fielded until December 2005.

The Military Deputy provided four comments (numbered 3, 23, 24, and 25) that
stated that the ground clearance issue for the NGSL was not as severe as reported.
He stated that the solution to the problem was better training and better
awareness.

The Military Deputy provided five other comments on the Finding. Comment 7
stated that FAR Part 12 was used for the NGSL as a cost savings initiative.
Comment 9 stated that mission success completion probability was included in
ORD I and removed in ORD III. Comment 10 stated that FMC reduced the
overall weight to meet the requirement in ORD III. Comment 27 stated that a poll
of users indicated that the NGSL was “great” and the users wanted more.
Comment 28 stated that the NGSL was not used frequently at five locations
because the loaders at those locations were assigned to support mobility/urgent
deployment taskings.

Audit Response. We partially agree with three of the Military Deputy’s
comments (numbers 20, 21, and 31) that discuss the maintenance ratio and the
number of fielded systems. We agree that the maintenance ratio is not a key
performance parameter (numbers 20 and 31) and we changed page 10 of the
report to state that the maintenance ratio was a key requirement. We also changed
the number of NGSLs fielded as of July 2005 from 345 to 328 on page 8 of the
report to address number 21. Information provided to us early in the audit
showed a higher number of fielded systems.

We disagree with the remaining 30 comments.

We disagree with comments 1, 4, 5, and 33 which indicated that, although the
NGSL replaced two pieces of equipment, meeting a surge scenario was not a key
performance requirement for the NGSL. The Air Force Single Acquisition
Management Plan for the NGSL identified two key performance parameters:
1) Aircraft Interface/Travel Operations/Transportability and 2) Cargo Operations.
Key Performance Parameter number 1 specified that the NGSL must be capable
of loading all stated aircraft so a second loader will not be required. This
parameter includes verbiage related to deployment that stated: “This maximizes
loader availability in contingencies.” At its current performance level,
contingencies cannot be met with one NGSL.
We disagree with comments 2, 8, 16, 17, 18, 19, 22, 29, and 32 which discussed
ground clearance and reliability. The Commander, WRALC provided Mean Time
Between Failure and Vehicle In Commission data for FYs 2004 and 2005 (see



                                    13
Table 3) that showed three of the four reliability measures are below the
thresholds specified in the final ORD dated July 2, 2001.

We disagree with comment 15 which discussed what should be the achievable
mean time between equipment failure. The Military Deputy’s comment provided
additional background but did not dispute that AMC approved the 40-hour MTBF
threshold and 60-hour MTBF objective and that FMC was involved in the
process.

We disagree with comments 6, 11, 12, 13, and 14 which discussed availability of
the NGSL during deployment and the deficiencies that could be resolved.
AFOTEC concluded that the NGSL was unreliable and that more than one loader
would be needed to accomplish mission requirements. The NGSL’s performance
in the field indicated the program office did not resolve the deficiencies.

We disagree with comment 26. The Military Deputy stated that although the
problem with the NGSL guide rails and rollers was not significant enough for
making a change, the Air Force was considering modifications to the rollers.
Also, he also stated the training plan for operators was in the process of being
changed. We witnessed the damaged guide rails and omni rollers and were told
by the operators that they were frequently broken during normal operations. We
commend the ongoing efforts to modify the omni rollers and improve training for
the operators.

We disagree with comment 7. The comment implied the Air Force adequately
considered the costs of developing a new system and that management decided to
use a commercial item to avoid potential cost overruns. Information we obtained
indicated potential developmental costs cited by the Military Deputy were not
supported by cost analyses or other studies contained in the procurement files for
the NGSL.

We disagree with the relevance of comment 9 which discussed the components of
a formula for measuring readiness. The Military Deputy’s statement that the
formula was removed is accurate and is already documented in subsequent
sections of the report.

We disagree with comment 10 which provided information on the improvements
made to reduce the NGSL weight. The comment provided additional background
but did not dispute that AFOTEC reported the FMC loader was still overweight or
that the loader was unreliable and unable to complete all assigned missions.

We disagree that comment 30 provided new or additional information requiring
clarification. Although it discussed the lack of parts support and interim contract
support, the comment did not dispute that parts support is inadequate and an
interim logistics support contract is still in the planning stages.

We disagree with comments 3, 23, 24, and 25. The Military Deputy’s comments
indicated ground clearance is an issue but not a severe problem and that increased
training can reduce damage. Increased operator training is commendable but the
vehicle’s ground clearance will remain problematic, especially at locations with
less than ideal surfaces. Also, restricting the vehicle to areas without flight line



                                     14
    elevation changes may reduce potential damage, but it will also diminish the
    vehicle’s operational effectiveness.

    We disagree with comments 27 and 28. The Military Deputy indicated that users
    of the NSGL were polled and that they were satisfied with the NGSL. He also
    stated that certain locations contained additional NGSLs that were stationed for
    rapid deployment and thus saw limited use. Operators that we spoke to told us
    they do not frequently use the NGSL because it is unreliable and has insufficient
    ground clearance. The Military Deputy’s comments provided additional
    background on deployment scenarios but did not dispute that at two of the largest
    Air Force airlift locations, Dover AFB and Charleston AFB, NGSLs operated an
    average of 4 hours per week in FY 2005.


Recommendations, Management Comments and Audit
  Response
    We recommend that the Air Force Office of the Assistant Secretary (Acquisition):

            1. Delay any further procurement of NGSL vehicles until reliability
    issues have been resolved and the vehicle receives a certified acceptable
    rating for mission capability.

    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) nonconcurred and stated that although
    reliability can be improved, performance data show the NGSL meets or exceeds
    AMC requirements and key performance parameters. He also stated that Air
    Force testing indicates that the NGSL meets MTBF requirements and that strong
    customer support emphasizes the need to acquire more NGSLs.

    Audit Response. The Military Deputy’s comments were nonresponsive and
    contrary to performance data given to us by the PEO, the Commander, WRALC,
    and the program office. The performance data clearly show that the reliability of
    fielded loaders is below AMC operational requirements (see Table 3). The
    Military Deputy states that reliability can be improved, but he does not offer a
    solution or plan of action. His statement regarding key performance parameters is
    contrary to the acquisition management plan and AFOTEC test results and is not
    supported by the performance data. During pre-award testing, AFOTEC
    independently concluded that more than one NGSL would be required to
    complete all necessary missions at a deployed location. As a result, the NGSL
    could not meet the key performance parameter that it be capable of loading all
    stated aircraft so a second loader will not be required. The Military Deputy did
    not provide a response to our recommendation that the vehicle receive a certified
    acceptable rating for mission capability. The NGSL has not received an
    acceptable rating for mission capability and the Military Deputy did not include
    corrective actions to obtain it. According to Air Force Mandatory
    Procedure 5315.3, “Source Selection,” August 10, 2005, a proposal with an
    unacceptable rating for mission capability is not awardable. In addition, we found
    that NGSL operators do not strongly support acquiring additional vehicles. We



                                        15
request that the Air Force Office of the Assistant Secretary (Acquisition)
reconsider its position and provide additional comments to the report.

       2. Require FMC to remedy the lack of adequate ground clearance to
ensure the vehicle is sufficiently capable of traversing prepared and semi-
prepared surfaces as required in the Operational Requirements Document.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) nonconcurred and stated the Air Force
agrees the loader has low ground clearance, but that $6 million is too much to
expend for the required modification. He also stated only two loaders have
sustained significant undercarriage damage and that 23 oil pans have been
damaged. He further stated that AMC is addressing the ground clearance issue by
increasing and improving operator training.

Audit Response. The Military Deputy’s comments were partially responsive but
did not address our concern regarding the vehicle’s capability for traversing
semi-prepared surfaces typically found at austere locations. According to the
ORD, the NGSL is required to have the capability to operate at both established
airfields and austere or semi-prepared, compacted landing areas at forward
operating locations. NGSL operators told us that the lack of ground clearance
limits the vehicle’s utility. The NGSL needs more ground clearance to
successfully interface with Air Force transport aircraft, such as the C-130
Hercules and C-17 Globemaster III, which can land on unpaved airfields. We do
not agree that $6 million is a prohibitively high cost to improve ground clearance
given the Air Force’s $151.5 million investment to field the NGSL, and given that
the NGSL’s mission requires it to operate in remote locations on less than ideal
surfaces. We believe that the Air Force needs to reevaluate whether $6 million is
a reasonable cost, considering the NGSL’s mission as a deployable asset to
support aircraft that can land on remote locations. Without improvements the
NGSL cannot effectively interface with aircraft even on improved surfaces. We
commend the efforts to improve training but remain convinced that the ground
clearance must be remedied to improve the usefulness of the vehicle on all types
of surfaces. We request that the Air Force Office of the Assistant Secretary
(Acquisition) reconsider its position and provide additional comments to the
recommendation.

       3. Consider other options, including use of the 60K Tunner Cargo
loader as an alternative to procurement of additional NGSLs.

Management Comments. The Military Deputy, Office of the Assistant Secretary
of the Air Force (Acquisition) nonconcurred and stated that the 60K Tunner has a
different mission and that the NGSL has the unique requirement to be
transportable on a C-130 for deployment to austere locations. He also stated that
AMC is responsible for NGSL basing levels.

Audit Response. The Military Deputy’s comments were nonresponsive and
contrary to AMC fact sheets for both vehicles. According to AMC, the missions
for the 60K Tunner and NGSL are quite similar: both are mobile loaders that are
rapidly deployable and are used to load and unload cargo from all Military and
civilian transport aircraft. Fielding data provided by the program office show that
71.6 percent of the NGSL fleet is collocated with a 60K Tunner. Most of the 98


                                    16
NGSLs that are not collocated are assigned to National Guard units and Air Force
Bases in the United States, not overseas. While we agree that the NGSL is
uniquely capable of C-130 transport, we concluded that the cargo loaders do not
perform divergent missions and that the Air Force needs to consider other options
as an alternative to procuring additional NGSLs that cannot meet operational
requirements for reliability. We request that the Air Force Office of the Assistant
Secretary (Acquisition) reconsider its position and provide additional comments
to the report.

       4. Improve controls to ensure that future FAR Part 12 acquisitions
adequately meet Air Force operational requirements. The oversight should
ensure that program officials comply with Air Force Mandatory Procedure
5315.3, “Source Selection,” August 10, 2005, and that contract proposals with
red-flagged reliability problems are not awarded.

Management Comments. The Military Deputy, Office of the Assistant Secretary
of the Air Force (Acquisition) concurred and agreed to ensure that future Federal
Acquisition Regulation Part 12 acquisitions adequately meet Air Force
operational requirements.




                                    17
Appendix A. Scope and Methodology
   We assessed whether Air Force officials complied with procurement procedures
   as implemented by Federal Acquisition Regulation Part 12 “Acquisition of
   Commercial Items.” Specifically, we determined whether Air Force contracting
   officials properly awarded contracts for a Next Generation Small Loader that met
   Air Force operational requirements.

   We obtained procurement documents and reports from Air Force officials.
   Specifically, we analyzed copies of acquisition strategies and plans, system
   performance requirement documents, operational requirements documents,
   requests for proposals, memorandums, briefing charts, e-mail, NGSL operational
   test reports, and other miscellaneous documents to determine whether the Air
   Force had an appropriate method and rationale for procuring the NGSL, whether
   the NGSL met operational requirements, and whether the procurement was
   unduly influenced by Darlene Druyun during her tenure as the Principal Deputy
   Assistant Secretary of the Air Force (Acquisition and Management).

   We also obtained FY 2005 reliability data from the NGSL program office that we
   verified with data we obtained at Dover and Charleston Air Force Bases.
   Specifically, we analyzed data extracted from the On Line Vehicle Information
   Management System to determine maintenance ratio, average vehicle downtime,
   operational availability, average operating hours, and failure rates for NGSL
   vehicles assigned to Dover and Charleston Air Force Bases. We compared our
   results to fleet-wide data provided by the program office. The FY 2005
   fleet-wide data provided by the program office did not include data for the month
   of September.

   We interviewed personnel at Warner Robins Air Logistics Center, Wright
   Patterson Air Force Base, Dover Air Force Base, Charleston Air Force Base, and
   Nellis Air Force Base. Specifically, we interviewed current and former program
   officials, contracting officials, current and former engineers, and NGSL
   maintainers and operators.

   Most of the documents we obtained, except for the FY 2005 reliability data, were
   created between FY 1997 and FY 2002. We performed this audit from June 2005
   through March 2006 in accordance with generally accepted government auditing
   standards.

   We did not review the managers’ internal control program. We did review
   compliance with laws and regulations related to the acquisition of DoD materiel
   handling equipment.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Contract Management high-risk area.



                                       18
Prior Coverage
    No prior coverage has been conducted on the NGSL during the last 5 years.




                                      19
Appendix B. Summary of Potential
            Monetary Benefits
Recommendation
   Reference        Type of Benefit     Amount of Benefit      Account(s)

      1          FY 2006/2007          $31.2 million        Air Force
                 Acquisition Funds                          Procurement
                 Put to Better Use.

                 Additional Delivery
                 Orders will not be
                 issued on Contract
                 Number FA8519-06-
                 D-0001




                                       20
Appendix C. Memorandums on the
FY 2006/2007 Procurement




                   21
22
23
24
25
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Air Force Office of the Assistant Secretary (Acquisition)
Auditor General, Department of the Air Force

Joint Staff
Chairman, Joint Chiefs of Staff

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                           26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        27
Office of the Assistant Secretary of the Air Force
(Acquisition) Comments




                        29
30
31
32
33
34
Team Members
The Office of the Department of Defense Office of the Deputy Inspector General
for Auditing, Defense Financial Auditing Service, prepared this report. Personnel
of the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Paul J. Granetto
James L. Kornides
Curt W. Malthouse
Col. Richard L. Norman
John R. Williams
Benjamin M. Howison
